<html>
<title> - AFGHANISTAN'S TERRORIST RESURGENCE: AL-QAEDA, ISIS, AND BEYOND</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                  AFGHANISTAN'S TERRORIST RESURGENCE: 
                       AL-QAEDA, ISIS, AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 2017

                               __________

                           Serial No. 115-20

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-262PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Bill Roggio, editor, Long War Journal, Foundation for Defense 
  of Democracies.................................................     4
Seth G. Jones, Ph.D., director, International Security and 
  Defense Policy Center, RAND Corporation........................    14
Vanda Felbab-Brown, Ph.D., senior fellow, Center for 21st Century 
  Security and Intelligence, Foreign Policy Program, The 
  Brookings Institution..........................................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Bill Roggio: Prepared statement..............................     7
Seth G. Jones, Ph.D.: Prepared statement.........................    16
Vanda Felbab-Brown, Ph.D.: Prepared statement....................    31

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Statement by H.E. Mahmoud Saikal, 
  Ambassador, Permanent Respresentative of the Islamic Republic 
  of Afghanistan to the United Nations...........................    58

 
                  AFGHANISTAN'S TERRORIST RESURGENCE: 
                       AL-QAEDA, ISIS, AND BEYOND

                              ----------                              


                        THURSDAY, APRIL 27, 2017

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Poe (chairman 
of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record subject to 
the length limitation and the rules. At this time, I am going 
to make my opening statement.
    When our forces invaded Afghanistan in 2001, the goal was 
simple: Remove the Taliban government that sheltered the 
plotters of the 9/11 attacks and destroy al-Qaeda. It has been 
16 years that the United States has been at war, and 
Afghanistan is still a haven for terrorists who seek to attack 
and kill Americans. Just today, two Americans were killed in 
the eastern province of Afghanistan.
    Our military quickly toppled the Taliban government in 
2001, and the Taliban/al-Qaeda forces fled to Pakistan where 
they regrouped and launched more attacks against our troops. 
Since then, the Taliban has waged insurgency in Afghanistan, 
destabilizing the country and creating perfect conditions for 
terrorists to exploit.
    The Taliban insurgency today is stronger than any other 
point since 2001. The Special Inspector General for Afghan 
Reconstruction said in January, 171 Afghan districts are 
controlled, influenced, or contested by the Taliban. As long as 
the Taliban is successful this means good news for al-Qaeda. 
Al-Qaeda has a long history of loyalty to the Taliban, or Osama 
bin Laden swore allegiance to the Taliban's leader, Mullah 
Omar, even before 9/11. And when bin Laden was killed, Ayman 
al-Zawahiri renewed his oath that cemented ties between al-
Qaeda and the Taliban. Wherever the Taliban has influenced, al-
Qaeda is not behind.
    Since 2010, United States' officials have claimed that al-
Qaeda had a small presence in the country limited to only 50 to 
100 fighters. That is absolutely incorrect. The United States 
has killed and captured more Afghan, more terrorists, since 
that time than was claimed to be in the entire country.
    Alongside al-Qaeda and Afghanistan we have another 
terrorist group, the Haqqani Network. This group is directly 
linked to both al-Qaeda and the Taliban and is based, guess 
where, Pakistan. The Haqqani Network is responsible for more 
American deaths in the region than any other terrorist group. 
The Haqqani Network attacks inside Afghanistan have been 
directly traced back to Pakistan. In fact, in 2011, Admiral 
Mike Mullen, the chairman of the Joint Chiefs of Staff, 
testified before the Senate,<greek-l> quote, deg. ``The Haqqani 
Network acts as a veritable arm of Pakistan's Inter-Services 
Intelligence agency.''
    It seems that Pakistan has ties to about every terrorist 
group that is in Afghanistan. Pakistan openly supported the 
Afghan Taliban both before and after the extremists took 
control of Kabul in 1996. We know the Taliban is still based in 
Pakistan, and it came to no surprise that when a U.S. drone 
strike killed the leader of the Taliban in May 2016, he was in 
southwestern Pakistan.
    The laundry list of evidence of Pakistan support for 
terrorists goes on and on. We remember that when the al-Qaeda 
leader and America's most wanted terrorist, Osama bin Laden, 
was killed he was found in Pakistan. Afghan's representative to 
the U.N. recently told the Security Council that Pakistan 
retains ties with more than 20 terrorist groups. And I ask 
unanimous consent to introduce into the record the full 
statement made by Afghan's representative to the U.N. and it is 
admitted.
    I believe Pakistan is playing us. They launched what they 
called counterterrorism operations in the tribal areas 
bordering Afghanistan, but it quickly became clear they were 
only targeting the Pakistani Taliban and not the Afghan 
Taliban.
    ISIS announced the establishment of an Afghan affiliate in 
January 2013 and has entrenched itself in the eastern part of 
the country. ISIS presence in Afghan further complicates the 
country's terrorist landscape. These fighters ended up becoming 
the leaders of the ISIS affiliate in Afghanistan known as ISIS-
Khorasan Province.
    It is no surprise that Afghanistan is a mess. In the war on 
terror it is crystal clear to me that Pakistan is not on our 
side. It is time that we consider, one, listing Pakistanas a 
state sponsor of terrorism; two, stop sending them U.S. aid; 
three, remove and revoke their status as a major non-NATO U.S. 
ally. Our Pakistan policy should match Pakistan's behavior. And 
I will yield to the ranking member for his comments.
    Mr. Keating. Thank you, Chairman Poe. Two U.S. service 
members were killed in Afghanistan overnight. Reports indicate 
that they were killed in operations against Islamic State 
fighters in Nangarhar Province in eastern Afghanistan. Words 
are truly inadequate to express our country's gratitude at the 
extraordinary sacrifice of these individuals and heroes, and 
our prayers are with their families.
    As the continued threat of insurgent groups and instability 
in the country poses a direct challenge to the United States, 
this year marks 16 years of military presence in Afghanistan 
following the September 11th attacks. Our own security is 
linked to Afghanistan's security, putting the elimination of 
terrorism there and putting them squarely within our interests, 
as well, as a country.
    If we are to be successful in eradicating this threat, we 
must be sure that the U.S. strategy in Afghanistan is 
addressing the drivers of terrorism head on. Unfortunately, in 
Afghanistan, there are multiple drivers, and our prolonged 
military presence in the country underscores this complex 
reality.
    Internally, Afghanistan's National Unity Government is 
still struggling to effectively address the many systemic 
problems facing their country. Organized crime, illicit 
economies, rampant corruption at all levels of the Afghan 
society require a coordinated and a robust approach from the 
government if Afghanistan is to achieve security from the 
national level all the way down to the community level.
    Taliban control in Afghan communities impedes the 
government's ability to limit recruitment and the threat of 
terrorism throughout the country. Strengthening the role of a 
democratic Afghan Government at all levels is absolutely 
necessary in order to eradicate terrorism in the long term. 
Additionally, the Afghan military continues to encounter issues 
of internal accountability and operational effectiveness in 
combating terrorist groups.
    I have witnessed U.S. military, along with our allied 
forces, training and advising Afghan forces for years and the 
significant progress they have made. However, there seem to be 
ongoing institutional challenges within the Afghan military 
that require further attention if their military is going to be 
sufficiently prepared to take on the long term responsibility 
of managing the terrorist threat in Afghanistan.
    There is a role for the United States to play in ensuring 
that Afghanistan can achieve their own security and 
independently and internationally deal with the support 
necessary to do so. However, we also need to be clear on what 
form our role should take.
    The security situation in Afghanistan, and by extension the 
United States, is multidimensional and not solely comprised of 
military objectives. The governance issues in Afghanistan that 
are stymied and that have stymied the progress in the fight 
against terrorism cannot be resolved solely through the use of 
force and integration of military expertise.
    The whole of the government approach is what is necessary. 
That whole of the government approach that Afghanistan must 
take to combat this threat of terrorism should be complemented 
by the diverse expertise that the United States can offer in 
order to make sure the Afghan Government is most efficiently 
and effectively moving toward greater security within its own 
borders. This means ensuring that our State Department and 
other key government agencies have the capacity to engage 
meaningfully with their counterparts and partners in 
Afghanistan.
    A whole of government approach here in the U.S. keeps our 
troops and allies safer. It also promotes longer stability in 
the country, a stability that will bring about a more rapid 
resolution to this conflict.
    I, therefore, join many of my Democratic and Republican 
colleagues on and off the Foreign Affairs Committee who are 
deeply concerned about the proposed budget cuts to the State 
Department and the impact they would have on our objectives in 
the long term. This is not only because of the complex 
situation within Afghanistan, but because of the role that 
other countries play in exacerbating the terrorist threat 
inside the country.
    We know that Iran and Russia have both provided assistance 
to the Taliban in an effort to counter the threat of the 
Islamic State groups in Afghanistan. Pakistan has had a long 
and complicated history and have long and complicated efforts 
to combat terrorism in Afghanistan through its acquiescence in 
providing safe haven to terrorists, particularly the Haqqanis.
    So, we need a balanced approach to tackling the terrorist 
threat in Afghanistan that reflects the complex and dynamic 
reality on the ground and in the region. Why should we tie one 
hand behind our back when we have the experts ready and waiting 
to make this difficult process of eliminating terrorist threat, 
a process that should move forward more effectively and 
quickly, if we take this approach?
    Today I am eager to hear from our witnesses about the 
lessons learned about what is working, what is not working, and 
why. This is important as the White House reassesses the U.S. 
strategy in Afghanistan and as Congress looks forward to an 
appropriations process which gives us the opportunity to make 
sure that the most effective strategies to bring peace and 
stability for Afghanistan and the United States are 
appropriately funded.
    Thank you, Chairman Poe. I yield back.
    Mr. Poe. I thank the gentleman. So, without objection, all 
the witness' prepared statements will be made part of the 
record. I ask that each of the witnesses please keep your 
presentation to no more than 5 minutes, and when the red light 
comes on you need to stop or I will encourage you to stop. I 
will introduce each witness and then give them time for opening 
statements.
    Mr. Bill Roggio--is it Roggio--is a Foundation for Defense 
of Democracies Senior Fellow and editor of the Long War 
Journal. Mr. Roggio was embedded with the U.S. Marines, the 
United States Army, and Iraqi forces in Iraq between 2005 and 
2008, and with the Canadian Army in Afghanistan in 2006.
    Dr. Seth Jones is director of the International Security 
and Defense Policy Center at the RAND Corporation. He 
previously served as the representative for the commander, U.S. 
Special Operations Command, to the Assistant Secretary of 
Defense for Special Operations.
    And Dr. Vanda Felbab-Brown is a senior fellow in the Center 
for the 21st Century Security and Intelligence at the Brookings 
Institution. She is an expert on international and internal 
conflicts and nontraditional security threats.
    Mr. Roggio, we will start with you. You have 5 minutes.

    STATEMENT OF MR. BILL ROGGIO, EDITOR, LONG WAR JOURNAL, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Roggio. Thank you, Chairman Poe and Ranking Member 
Keating, and the rest of the distinguished members of this 
committee. This is a timely discussion.
    Last week the Taliban launched a major attack on an Afghan 
army base. Ten fighters launched what I call a suicide assault 
where the fighters penetrate security at the base, and they are 
not coming back. They are going to fight to the death. They 
killed at least 140 Afghan soldiers. This was an attack on an 
army corps base in northern Afghanistan, not in the south where 
everyone assumes the Taliban to be strong. I have seen reports 
of upwards of 250 Afghan troops killed in this attack.
    The Taliban is using tactics that have been honed and 
perfected by al-Qaeda and now the Islamic State, which is the 
child of al-Qaeda. We are losing in Afghanistan. The U.S. 
military will tell you at best we are at a stalemate, but in a 
stalemate, in that situation, the tie goes to the insurgent and 
the Taliban controls or contests at least half of Afghanistan.
    The Taliban issued a report in late March saying they 
control or contest 211 of Afghanistan's more than 400 
districts. That is very close to the SIGAR report that you had 
mentioned where it was, I believe, 177. That assessment was 
given by SIGAR in the fall of 2016. In addition to--and the 
reason the Taliban matters is the Taliban and al-Qaeda, they 
remain tied at the hip. The Taliban refused to surrender al-
Qaeda members and Osama bin Laden after the 9/11 attacks. They 
continue to fight side by side.
    Al-Qaeda serves as a force multiplier. Multiple 
designations from the U.S. Treasury Department talk about how 
al-Qaeda and the Taliban fundraise for each other in the Gulf 
States. This includes the Haqqani Network by the way. And we 
continue to see al-Qaeda fighters killed on the battlefield. As 
a matter of fact, the U.S. military killed a senior al-Qaeda 
leader just last month inside Afghanistan.
    So a lot has been made in the U.S. intelligence circles 
about the strength of al-Qaeda. Under the Obama administration, 
we were told there were 50 to 100 al-Qaeda fighters inside the 
country, and we were consistently given this estimate for more 
than 6 years. This all came crashing down in October 2015 when 
U.S. military raided two al-Qaeda camps; one of them described 
by a U.S. commander as possibly the largest al-Qaeda facility 
taken down since 9/11. This is in Afghanistan; not in Syria, 
not in Iraq, not in Somalia or Yemen. More than 150 al-Qaeda 
fighters were killed in this one raid alone. So, we basically 
took 150 percent of al-Qaeda's estimated strength by the U.S. 
military that was given in intelligence circles for more than 6 
years.
    We have an intelligence problem in Afghanistan. We have a 
problem recognizing what the threat is. Until we determine 
where al-Qaeda is inside Afghanistan and how they are working 
closely with the Taliban, we will continue to have a problem, 
and we will fail to properly deal with this threat. Today, a 
lot of the threat in Afghanistan is looked at as being the 
Islamic State's Khorasan Province. We dropped the mother of all 
bombs there, and as you both had mentioned, we lost two 
soldiers in Nangarhar Province last night.
    The Islamic State is on the fringe. It is a small problem 
in Afghanistan compared to al-Qaeda, the Taliban, and other 
Pakistani jihadists groups that operate there. They operate 
primarily in four districts in Nangarhar Province and have a 
minimal presence in the north. It certainly is a problem. Our 
efforts seem to be focused on the Islamic State at this point 
in time while largely ignoring what the Taliban is doing 
throughout the country, and that is directly challenging the 
Afghan military. They are going toe to toe, they are raiding 
their bases, they are taking control of territory, and the U.S. 
military, frankly, has downplayed this problem with the 
Taliban.
    When the Taliban overran the Sangin District, hundreds of 
U.S. Marines and British troops died trying to liberate it 
during the surge between 2010 and 2012. When the Taliban 
overran that district, the military put out--what I will say 
is--a ridiculous press release stating, no, no, the district 
wasn't overrun. We merely moved the district center, and the 
Taliban took control of rubble. And if that is the attitude of 
the U.S. military toward the Taliban inside Afghanistan, we 
will continue to lose this war.
    We need to reassess Afghanistan. We need to--our policy in 
Afghanistan is a mess, frankly, and the Trump administration 
needs to decide what to do and how to do it, quickly. Thank you 
very much.
    [The prepared statement of Mr. Roggio follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
                              ----------                              

    Mr. Poe. The Chair recognizes Dr. Jones for 5 minutes.

  STATEMENT OF SETH G. JONES, PH.D., DIRECTOR, INTERNATIONAL 
      SECURITY AND DEFENSE POLICY CENTER, RAND CORPORATION

    Mr. Jones. Thank you, Chairman Poe, Ranking Member Keating, 
and other distinguished members of the subcommittee. Thanks for 
holding this hearing. It is a reminder that Afghanistan is and 
should be still important.
    At over a decade and a half after the 9/11 attacks, many 
Americans may not realize how deeply engaged the U.S. remains 
in Afghanistan. Most of the media coverage, up until very 
recently, has been on counterterrorism operations in Syria, 
Iraq, North Korea, and a range of other locations, but 
Afghanistan is a front line state. Many may also forget that 
the number of U.S. military forces there, which is in the 
neighborhood of 8,400, is larger than any other active combat 
zone deployment. It is larger than what the U.S. has in Syria, 
Iraq, or other combat zones. As Bill mentioned earlier, some 
Americans finally began to realize and remember that we still 
have forces there after the U.S. dropped its most powerful, or 
one of its most powerful non-nuclear bombs.
    My comments are going to focus on three questions. First, 
what are U.S. national security interests in Afghanistan today? 
That is one. Two, what is the terrorist and insurgent 
landscape? And then three, what, at least briefly, steps can 
the U.S. do to help mitigate the threat from Afghanistan and 
more broadly in the region?
    So, let me turn to U.S. interests. I mean, I think there is 
no question that the U.S. has a range of interests overseas. I 
mentioned earlier Russia, China, North Korea, and Iran, but I 
do think the U.S. has several interests that remain in 
Afghanistan. One is that there are a number of extremist 
groups, Islamic extremist groups, that continue to operate on 
both sides of the Afghan-Pakistan border. Bill mentioned them 
earlier. They range from al-Qaeda, the Taliban, Haqqani Network 
to the Islamic State, but also a range of other ones that have 
operations in Central Asia.
    Second, I think an expanding war, if the U.S. were to 
leave, would also increase regional instability particularly 
with countries like India, Pakistan, Iran, Russia, and even 
China. A particular concern to me would be what it does to the 
Pakistan-India competition. Those are both nuclear armed states 
and have gone to war and are essentially fighting a proxy war 
in Afghanistan right now.
    Let me then move to the landscape, because I think this is 
important to remember. It is part of U.S. interests. The 
Taliban does continue to operate. It is the largest group that 
operates in Afghanistan. It does have its sanctuary, its 
command and control nodes, in Pakistan not in Afghanistan. Its 
three major regional surahs are also on the Pakistan side of 
the border. And I would just emphasize again the chairman's 
remarks about the increase in Russian contacts and, at least, 
limited support to the Taliban. It is not a positive step in 
developments in the region.
    But I would point out with the Taliban, the Taliban does 
not control yet--I mean I would certainly argue that it has 
increased its rural presence. It does not control yet a major 
urban area, which makes it a little different from what we have 
seen in 2014, 2015 in Iraq in cities like Mosul or other cities 
within Anbar.
    AQIS, al-Qaeda in the Indian Subcontinent, my estimate is 
probably larger and more expansive than it was 5 to 10 years 
ago. It has a presence that is larger than just what some 
Americans have talked about up in the northeast; but down in 
the south in Kandahar as Bill mentioned, in Helmand, along the 
Baramcha area, in Zabul, in Ghazni, in Paktika, those are 
likely small cell structures.
    In addition, the Islamic State-Khorasan Province does have 
a presence. It looks to me like it has probably come down a 
little bit from a year or 2 ago--down to between 1,000 and 
2,000 fighters--but I would say that it has conducted a number 
of attacks both in Afghanistan and Pakistan as well as in 
Bangladesh. So, in my view it has been pretty active in 
conducting attacks. There are other groups, the Tehrik-i-
Taliban Pakistan, Lashkar-e-Taiba, and Jamaat-ul-Ahrar that 
also have a presence in the region, and I think--in that 
sense--there are a milieu of groups.
    Just briefly, I would note there are a range of things. I 
would support the ranking member's comments about focusing on 
governance and development. I would add electoral reform. I 
would also add, I think there are opportunities at the moment 
for reconciliation. I certainly would support at least opening 
up discussions. I think they are probably unlikely in the near 
term, but I think they are worth talking about.
    The range of things, and we can certainly get into this 
that--I would suggest pushing U.S. trainers down to the 
tactical level. I would support probably slightly increasing 
the U.S. presence in Afghanistan but more on the trade, advise, 
and assist efforts. And I am happy to talk more later about the 
steps toward Pakistan, but let me just briefly conclude by 
noting that the Afghan Government and generally these people 
want the U.S. to stay, so I think we should take that 
seriously. Thank you.
    [The prepared statement of Mr. Jones follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
                              ----------                              

    Mr. Poe. I thank the gentleman.
    Dr. Felbab-Brown, 5 minutes.

 STATEMENT OF VANDA FELBAB-BROWN, PH.D., SENIOR FELLOW, CENTER 
  FOR 21ST CENTURY SECURITY AND INTELLIGENCE, FOREIGN POLICY 
               PROGRAM, THE BROOKINGS INSTITUTION

    Ms. Felbab-Brown. Thank you very much, Chairman Poe, 
Ranking Member Keating, and distinguished members of the 
subcommittee. It is an honor for me to address you today.
    I want to give away my punch line right at the beginning. 
Improving governance, not merely beefing up military efforts or 
attempting to counter external sponsor of terrorism in 
Afghanistan, is critical for the success of U.S. 
counterterrorism efforts. It is also critical for the broader 
interests the United States has in Afghanistan and the region. 
Yes, denying safe havens to anti-American global and regional 
terrorist groups is crucial, and it is the number one primary 
objective.
    But, U.S. interests in Afghanistan go beyond that. As Seth 
also mentioned, an unstable Afghanistan risks destabilizing 
Pakistan. The relationship is not merely the reverse that a 
problematic Pakistan destabilizes Afghanistan, but also that an 
unstable Afghanistan destabilizes Pakistan and, as result, 
Pakistan-India relationship and the entire region of Central 
and South Asia.
    Moreover, this integration of the Afghan State or an 
outbreak of an outright civil war would be a great boost to 
Salafi groups around the world. Once again, a great power will 
have been seen as being defeated in Afghanistan. That is from a 
strategic perspective, few places from a counterterrorism point 
of view matter as much as Afghanistan does. Moreover, U.S. 
reputation and self-regard are also at stake as a country that 
can be relied upon to honor its commitments, including 
commitments to the Afghan people.
    The Taliban remains by far the most potent terrorist group 
in Afghanistan. It has not targeted U.S. assets or people 
outside of Afghanistan, but certainly makes it a good point to 
target them in Afghanistan and defines as its primary objective 
to drive U.S. forces out of the country. It is a major threat 
to the Afghan State, the Afghan Government, and, frankly, the 
very political dispensation that has been in the country since 
9/11.
    Afghanistan remains in a highly precarious position. As the 
chairman said, the Taliban today is at its strongest point at 
any point since 9/11. That does not mean that the Taliban does 
not have problems, does not have shortcomings, or suffer from 
deficiency and constraints; it does. But nonetheless, its 
military energy is showing no signs of fizzling out yet.
    More significantly, the Taliban is often seen as a less 
pernicious form of governance than even some of the power 
brokers associated with the Afghan Government and the post-9/11 
dispensation in Afghanistan. And, this is indeed the 
fundamental problem in the country and the reason why the 
Taliban still today has so much capacity to regenerate and 
weather the military pressure from the United States, allies, 
and even the Afghan security forces. Unless major progress is 
made in improving governance in Afghanistan and the 
acceptability and perceptions of governance in Afghanistan, 
even with beefed-up U.S. forces, we can be exactly in the same 
predicament 5 or 10 years from now.
    The government of National Unity has made some important 
efforts to improve governance. It has taken on some corruption 
and criminality but these efforts are hardly sufficient. Much 
more needs to take place, and the United States must make it a 
crucial point of its engagement with Afghanistan to insist, 
facilitate, and help with improving governance.
    The priority in improving anti-corruption and anti-crime 
measures clearly are in the Afghan security and defense forces. 
Indeed, one of the reasons they have been struggling so much on 
the battlefield and are taking such large casualties is because 
of the ethnic and patronage rifts, the corruption that plagues 
the services that results in poor leadership, poor morale, and 
a whole host of other enable problems. Clearly, the system of 
corruption and the system of criminality are an enormous 
challenge in Afghanistan, defining the very political 
arrangements of the country.
    It is not realistic to expect that everything can be 
tackled, but even just taking on some steps, particularly 
before the next Presidential election in Afghanistan, would be 
very important, once again, starting with the most deleterious 
forms of corruption and criminality such as rooting out 
discrimination of entire ethnic groups.
    One of the reasons why we saw the fall of Kunduz, the most 
significant, tactical, and in fact strategic victory of the 
Taliban so far, is number one along with that--and very much 
correlated with focusing on the corruption and criminality in 
the Afghan National Security Forces. There are other measures 
beyond that that I am glad to answer or speak about during your 
questions.
    [The prepared statement of Ms. Felbab-Brown follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
       
                              ----------                              

    Mr. Poe. I thank all three of the witnesses. The Chair will 
reserve its time until the close of all the questions by the 
other members, so therefore, I will recognize the ranking 
member for his 5 minutes.
    Mr. Keating. Thank you, Mr. Chairman. A couple of things, 
and based on your testimony, I would like to just give you the 
opportunity to comment on more. Can you give us some of the 
examples, Doctor, on the criminality and the corruption 
activities more specifically within the National Security 
Forces?
    Ms. Felbab-Brown. The most fundamental problem--I would 
say--is that positions of leadership at all levels, from unit 
down to higher-up levels have for years been allotted on the 
basis of ethnic patronage, very much with mind of rivalries 
amongst specific commanders, and also related to tribal and 
ethnic rivalries, but also have been sold out to those who can 
pay most for the positions. And similar issues, such as getting 
leave to go to family, has often been associated with those who 
can pay at the level of individual soldiers. Related to that, 
with perhaps most significant progress achieved so far, is 
simply on getting pay down to soldiers as well as getting 
equipment to soldiers.
    Mr. Keating. Right. Now when I was there a few years ago, 
they were implementing electronic payments directly, and that 
was a way to try and ameliorate that. Has that been utilized, 
first, and has it been successful?
    Ms. Felbab-Brown. Yes. The process is underway, and it is 
more linked to biometric systems, one of the primary of sort of 
focus for the U.S. military and allied military as well as 
President Ghani. So, progress has been achieved. It is hardly 
complete; the process is not full. I want to very much 
compliment the U.S. military in Afghanistan for insisting that 
only soldiers that are part of the biometric system are paid, 
because an immense problem has been ghost soldiers that have 
been receiving payment.
    Mr. Keating. Thank you, Doctor. You gave me some more 
specifics that I appreciate.
    Dr. Jones, you wanted some more time to talk about Pakistan 
and the regional instability, but also you mentioned 
Bangladesh. If you could, really comment on Pakistan and 
Bangladesh and what the effects regionally are there from your 
vantage point?
    Mr. Jones. Sure. My comments on Bangladesh were actually 
twofold if I had had a little more time. One is that we have 
seen an increase in Islamic State-Khorasan Province activity, 
including strikes in and around Bangladesh. We have also seen a 
growth of al-Qaeda in the Indian Subcontinent of Bangladesh as 
well.
    So we often focus a lot on Afghanistan. The terrorist 
problem is a regional one, and we often focus also on Pakistan, 
but Bangladesh has seen a major increase in jihadist activity 
over the past several years. So, you know, part of the answer 
here is a much better regional counterterrorism and governance 
issue than just focusing on Afghanistan or----
    Mr. Keating. Yeah. Would you say in Bangladesh too--with 
some of the things I have witnessed there in terms of the way 
their government is running right now--do you think that has 
been an incubator for this kind of activity or do you think it 
is just because of geography?
    Mr. Jones. Well, I think it is a combination both of 
geography and also strategy. When Ayman Al-Zawahiri announced 
the creation of al-Qaeda in the Indian Subcontinent, he 
specifically asked for Bangladesh to be included in that. So, 
it was a strategic decision. There is also--and you can see the 
World Bank or Transparency International data--it is a weak 
state. It has allowed groups like the ones I mentioned to 
establish sanctuary there, so again very serious concerns, I 
think, in Bangladesh.
    Mr. Keating. And do any of the witnesses want to talk about 
what we could do with the Iranian and Russian influence in that 
area, any suggestions you might have?
    Ms. Felbab-Brown. I think it is very important, 
significant, and laudatory that General Nicholson highlighted 
the pernicious role of Russia. It is not new. It has been in 
the making for a number of years even during Russia's nominal 
cooperation with the United States and Afghanistan. It has been 
halting and sporadic, and it has clearly disintegrated as part 
of the difficult U.S.-Russia relationship.
    There are no easy fixes, but exposure is an important first 
step, and there are other ways to engage diplomatically with 
Russia. Hence, Ranking Member, I emphasize your crucial 
statements in the beginning about the role of the State 
Department and the fact that wars cannot simply be won on the 
military battlefield. The diplomatic effort as well as the----
    Mr. Keating. Briefly, on the issue of the Russians 
supplying arms to the Taliban, is some of that just part of the 
way they act criminally for their own revenues, criminal 
syndicates, and things, or do you think it is strategic or 
both?
    Ms. Felbab-Brown. I do believe it is strategic. There is no 
doubt that the Russian military has dealt with issues of 
criminal involvement and criminal perpetration, including in 
the narcotics trade. But I do believe that in the case of 
supplying weapons to the Taliban it is a very controlled 
strategic decision and likely indicates rogue members of the 
Afghan military selling weapons and equipment to the Taliban as 
well.
    I do want to emphasize, however, that support for the 
Taliban, such as from Iran, in my view, no more than the 
support that Russia provides, is also very much a function of 
the regional disbelief, at this point, that a stable, 
successful government in Afghanistan, as envisioned after 9/11, 
can be achieved. And it is the tremendous insecurity and 
uncertainty about what will happen with the government, 
including as a result of the lack of clarity of U.S. position 
that encourages----
    Mr. Keating. So, we get back to governance too. I know my 
time is over so I want to yield that back, but we go back to 
governance again. Thank you.
    Mr. Poe. I thank the gentleman. The Chair recognizes the 
gentleman from California, Colonel Cook, for 5 minutes.
    Mr. Cook. Thank you very much, Mr. Chairman.
    Continuing the conversation, I wanted to ask how the 
Chinese view the disturbing role of Russia there, particularly 
being an ally of--well, China being an ally of Pakistan, and of 
course, they border Afghanistan. Is that viewed as a major 
threat any time the Russians do something along a border that 
is close to China? And that is up to anyone to address that if 
they could.
    Mr. Roggio. Sure, I will address that. I can't speak to 
what China has or hasn't done with respect to Russian arming of 
the Taliban, but the Chinese certainly have an interest in 
stability in Afghanistan. They have economic interests and, 
obviously, security interests there as well. And there is a 
group that is based--it is called the Turkistan Islamic Party. 
It is made up of primarily ethnic Uyghurs from western China 
and they conduct attacks. They primarily are based in 
Afghanistan and are closely allied with al-Qaeda as well as the 
Taliban. They fight inside Afghanistan alongside those groups.
    And so you have that bleed-back problem where fighters that 
come from China to fight inside of Afghanistan come back, and 
that is a major security issue and security concern for the 
Chinese Government.
    Mr. Jones. If I could just add--I mean--I would say broadly 
speaking the Chinese have several interests. One is, 
historically, the economic interest--what I would call soft 
power. They do have access to a range of mines although they 
have been slow to develop them because of the security 
situation. Two, they have been involved in peace negotiations, 
so trying to bring the Taliban to the peace table, that have 
not been particularly successful. And three, they have had 
terrorism concerns. I suspect that anything that would 
exacerbate their concerns about terrorist activity in the 
region, including Russian support, would make China somewhat 
nervous.
    Mr. Cook. Doctor?
    Ms. Felbab-Brown. I agree with those comments, perhaps only 
to add there is rivalry between China and Russia. It is taking 
place in Central Asia. The rivalry is, perhaps, not without 
restraint, but nonetheless that is clearly taking place. So, 
this is yet another element of the rivalry, the threats, and 
the interests of China that serve, and Bill articulated also, 
then implied, that China cannot be happy with Russia's 
maneuvers toward the Taliban.
    Mr. Cook. I want to address the poppy and the drugs that 
finance the Taliban. And it almost seems counterproductive for 
the Russians to be supporting the Taliban if you are worried 
about some of these drugs that would go up through Uzbekistan 
into Russia, which has had some concerns about growing drug 
problems of its own. Could you address that drug situation, 
because it is as I said--it doesn't seem logical.
    Ms. Felbab-Brown. Sure. I will be very glad to do that. A 
lot of my expertise is on the issues of drugs, including in 
Afghanistan. So you are right, Representative Cook, about the 
poppy being often emphasized as a key interest and problem of 
Russia. Russia has long blamed the United States for poppy 
cultivation in Afghanistan, accusing the U.S. of being at best 
incompetent and often purposeful in allowing poppy cultivation 
as a tool of poisoning the Russian nation. Obviously, those are 
outrageous and incorrect claims. The larger issue, of course, 
is that it is enormously difficult to suppress poppy 
cultivation, as the Russian Government is well aware, and in 
fact, any aggressive eradication measures will only feed the 
Taliban insurgency. The Taliban derives a great deal of support 
by being able to protect itself--offer itself as a protector of 
the poppy farmers.
    And in fact, one of the reasons why the Islamic State in 
Nangarhar is so particularly challenged is because it has 
prohibited poppy cultivation there and essentially mobilized 
the populations in Achin, Shinwari, Khogyani against itself. 
However, Russia's interest in countering the drug trade is 
offset by its other interests, and I would say that Russia's 
driving interest these days is to be as challenging to the 
United States across the world as possible.
    Mr. Cook. Thank you, I yield back.
    Mr. Poe. I thank the gentleman. We are in the process of 
votes. We do have time for one more series of questions from 
Ms. Frankel from Florida. That is right.
    Ms. Frankel. Thank you. Thank you very much to the panel 
for being here. So, I guess probably myself, like most 
Americans, are just very frustrated. My own son has served in 
the military in Afghanistan as well as USAID, and so I have 
heard a lot of war stories.
    I want to ask you this. Compared to pre-9/11, which 
obviously led to the catastrophe of the towers, how would you 
compare Afghanistan and the dangers currently?
    Mr. Roggio. Sure; I will tackle that. Well, prior to 9/11, 
al-Qaeda was operating training camps with no threat of--
really, little threat other than maybe an occasional cruise 
missile strike or something like that, and they were doing it 
with the support of the Taliban. So, you had the state 
sponsorship side; as such the Taliban was a state, and they 
were operating unfettered.
    Today, Afghanistan is a war zone. We have American forces 
there, and they are engaging, targeting, and killing al-Qaeda 
leaders and trying to prevent them from maintaining safe haven. 
However, that camp that I mentioned in Shorabak and Kandahar 
Province that was operating for some time before American--
Americans only found out about it when they conducted a raid in 
Paktika Province several months prior and killed a senior al-
Qaeda leader there. Then, they discovered evidence of that 
camp, and that is when they--and then they spent several months 
planning the attack.
    So, and also I would add that this continuous fighting 
really serves as a recruiting machine for jihadist groups. That 
doesn't mean we shouldn't be fighting them there, but the 
longer we are there fighting the more they are going out and 
selling their wares. They are getting jihadists to join their 
cause, be it the Taliban, al-Qaeda, or the myriad of Pakistani 
jihadist groups operating there. Thank you.
    Mr. Jones. If I can add to that, I mean--I think pre-9/11, 
with al-Qaeda's sanctuary and external plotting and with 
assistance from the Taliban regime, the threat level to the 
U.S. was obviously extremely high. Over the next couple of 
years, it varied somewhat. I mean--I would point to the period 
of 2009 and 2010 where we had several active plots that went 
back to that area, Faisal Shahzad in New York City as well as 
Najibullah Zazi, also New York City plots.
    I think today the threat level is serious. I don't see the 
same number today of external plotting by AQIS, al-Qaeda in the 
Indian Subcontinent, or core al-Qaeda, but I would say that as 
we look at future trends, particularly with the return of 
foreign fighters from Iraq and Syria to the region, it is a 
serious danger of becoming something like that in the future.
    Ms. Frankel. So I guess that leads to my next question, 
which is, does that call for keeping the troops there, more 
troops? Obviously, I guess the--you have talked about, Doctor, 
about USAID type efforts, and with the governance and the 
corruption, I would be curious as to whether you have seen any 
progress at all in terms of the governance and the corruption 
issue? But if you could answer both those questions.
    Ms. Felbab-Brown. I definitely see progress. Clearly, 
President Ghani is motivated to take on corruption and 
criminality. He has been constrained, and much more than has 
been done needs to be done. Unfortunately, more broadly the 
Afghan political elite continues to be constantly preoccupied 
and distracted, as mentioned, with politicking and not 
sufficiently focused on governance, and here is a crucial 
element of where U.S. policy needs to engage.
    If the United States decided to withdraw from Afghanistan, 
we would be in a situation of full-blown civil war with the 
Taliban controlling significant territories. No doubt the 
situation would be dire in the country with serious 
repercussions for the United States. I do believe that there is 
good reason to have more troops in Afghanistan, simply because 
the current force posture does not allow, really, for any 
meaningful U.S. presence outside of Kabul or even in terms of 
assistance and eyes on the ground, such as in economic efforts.
    However, I also believe that the continuing U.S. 
engagement--military engagement needs to be coupled with a very 
explicit political strategy, and I don't mean by the 
negotiations with the Taliban simply or predominantly, but 
rather very explicit engagement with the Afghan Government 
about improving governance. So yes; there is some progress but 
hardly sufficient, and that needs to be the core of U.S. 
engagement in the country.
    Ms. Frankel. Thank you. I think my time, Mr. Chairman. Mr. 
Roggio, I just want to understand something that you said. You 
said that fighting begets fighting, and yet I think you are all 
advocating that we maintain our troops. So, is the theory to 
try to maintain the troops without fighting or let just as 
advisers and trainers?
    Mr. Roggio. Yes. Afghanistan certainly is a catch-22 
situation at this time given the length of time we have been 
there, and I think we have lost the trust of a lot of Afghans. 
However, I don't see any other option, and I agree with Dr. 
Brown. If we pull our forces out of there--if we disengage from 
Afghanistan, it will be largely run by the Taliban, large 
Taliban pockets in the south, east, north. You will have al-
Qaeda back in strength.
    So, we have to continue fighting them, and we have to work 
hard at the governance side as well. We really need to find the 
right--it is amazing to me that in almost 16 years, we haven't 
found the right incentives to get the Afghans to do what they 
need to do to take this fight to the Taliban--to defeat them.
    I also agree--negotiations, we have been down this path 
numerous times. We have been fooled by the Taliban. The Taliban 
are motivated. Yes; they have their problems militarily and 
politically, but there is no incentive for them at this point 
in time. They believe they are winning. They are winning in 
some areas, and we are not going to get them off the 
battlefield by negotiating with them. They need to be defeated 
militarily. We never have done that, and that is going to be 
extremely difficult until we solve the Pakistan angle, which we 
have all discussed multiple times here. Thank you.
    Mr. Poe. I thank the gentlewoman from Florida. The 
subcommittee will be in recess until 10 minutes after the final 
vote. There are three votes. Mr. Rohrabacher from California 
will be the next questioner of the panel.
    [Recess.]
    Mr. Poe. The subcommittee will come to order. The Chair 
recognizes the gentleman from California, Surfin' Rohrabacher.
    Mr. Rohrabacher. Well, Mr. Chairman, I will have to amend 
your introduction. It is not the surfing Rohrabacher; it is the 
suffering Rohrabacher now.
    Well, listen, I have enjoyed your testimony today. I am 
going to have some challenges about some of the positions that 
you have been advocating. It doesn't mean I don't respect you. 
I do, because you seem like you are smart and you have done 
your homework, but I do disagree with you on some things. Also, 
perhaps, there would be some alternatives that you need to 
think about that maybe you haven't and, maybe, we haven't as a 
country. But first let me ask some specific questions on 
issues. How much heroin and opium is now being produced in 
Afghanistan?
    Ms. Felbab-Brown. I do not remember the exact number from 
last year, but it is a very high number. It is believed to 
supply at least 90 percent of the world's opiate production.
    Mr. Rohrabacher. Talking about billions of dollars?
    Ms. Felbab-Brown. Yes, and a significant portion of the 
country's GDP. So the United Nations Drugs and Crime Office 
estimates, or used to put out a number--they stopped putting 
out a number--that only about 4 percent of Afghanistan's GDP is 
linked to opium poppy. That is a very significant 
underestimate. They only measured the farm-gate production. I 
think it is a----
    Mr. Rohrabacher. Okay, so we are talking about billions of 
dollars that we know is floating around Afghanistan, and is it 
fair to say that a significant amount of that money gets into 
the hands of Islamic terrorists including the Taliban? Okay, 
nobody disagrees with that?
    Ms. Felbab-Brown. Certainly the Taliban. There has been no 
evidence that the money has been going to other terrorist 
groups. It is a significant number of that money that gets to 
the hands of power brokers linked with the Afghan Government.
    Mr. Jones. But the Taliban, which does have relationships 
with other groups, the Taliban does get a fair amount of money 
from----
    Mr. Rohrabacher. Okay, so the Taliban gets a fair amount of 
money and, of course, the Afghan Government, who we put into 
place--corrupt officials in that group including the family of 
Mr. Karzai maybe. We are talking about billions of dollars of 
wealth. Well, with billions of dollars going like that--coming 
out like that, I can imagine that would buy a lot of AK-47 
bullets, and people wonder where people get the money now.
    Do you think we would have the ability--I don't know; are 
any of you aware that we now have the ability to drop--to spray 
an area and that within a short period of time, in a way that 
will not hurt other crops, would eliminate the poppy production 
in Afghanistan and, basically, would not permit it to grow in 
that area again for 10 years? Are you aware of that government 
program?
    Okay. Well, let me note for the record, Mr. Chairman, that 
we have had that capability for at least 20 years and have not 
touched it and not done it. We didn't do it after 9/11. We had 
that capability, and we didn't do it. After 9/11, there were 
storehouses of opium where the Taliban had stored billions of 
dollars of opium and heroin in special locations in 
Afghanistan. And I would just go on the record for the first 
time on this. I notified our Government at the very highest 
level exactly where those were and that they needed to be 
bombed because the Taliban needed to be denied that money, and 
our Government never did that. Our Government never did it. The 
excuse was always, well, we think it might be too close to a 
mosque.
    All right. In terms of our alternatives now, okay, we ended 
up bringing Karzai in. We have already heard an assessment of 
the level of corruption associated with the Karzai regime and 
the Karzai family. We created that. Those of us who were 
engaged with this effort before that time wanted the king to 
return the king. He was the one guy, Pashtun and the rest of 
them, who everybody respected. Instead, we brought in Karzai, 
who it appears as being said today oversaw massive corruption.
    But now, back to how we now are in. So now, we are in a bad 
spot. We didn't do what was right then, and now we are in a bad 
spot. And let me just say for the record, Mr. Chairman, that 
the alternative is not just putting more U.S. troops into 
Afghanistan.
    And let me ask the question of our panel, do you know how 
many U.S. troops were in Afghanistan after 9/11 at the time 
when the Taliban were driven out of Kabul? Do we know? Two 
hundred. Two hundred. So, obviously, 200 Americans weren't the 
ones who drove them out, it was the Northern Alliance. And 
instead of having a government in which we respected these 
individual leaders and a decentralist approach--have any of you 
read the Afghan Constitution? Have you read the--okay.
    Who in the Afghan Constitution, who appoints the local 
police? Kabul. Who appoints the local educators? Kabul. We gave 
them, Mr. Chairman, the most centralized government plan for 
the people who are the most decentralized culture in the world, 
and now they are upset, and they are willing to go along with 
any number of groups.
    And I am going to leave it with this one thought, because I 
am sorry if I am taking too much time, Mr. Chairman. The Flying 
Tigers came in, and really, they were private people, and they 
were saving Chiang Kai-shek from this onslaught of the Japanese 
before Pearl Harbor. They were actually on the way there. Their 
first mission actually happened a couple days after Pearl 
Harbor, but they were on their way over to create an air force.
    We need air cover; do we not, sir? Do not our friends in 
Afghanistan need the air cover? It is now being proposed by a 
private sector of folks, who are not dissimilar from the Flying 
Tigers, that they would go to Afghanistan and provide this 
service. And I would hope that anybody reading this testimony 
understands that we don't need to send massive troops in when 
private sector people will get the job done or if people in 
their own country would get it done. Thank you very much, Mr. 
Chairman.
    Mr. Poe. I thank the gentleman. The Chair recognizes the 
gentlelady from California, Ms. Torres.
    Ms. Torres. Thank you, Mr. Chairman, and thank you to the 
panel for taking time to be here today.
    Based on recent statements by General Nicholson and 
Secretary Mattis, it appears increasingly clear that Russia has 
been arming the Taliban. What is your assessment of Russian 
intentions in Afghanistan? And I would like to hear an opinion 
from maybe the three of you. How do you think the United States 
should respond to Russia's intervention in Afghanistan?
    Mr. Roggio. Sure. I believe Russia's intentions are 
primarily focused on targeting the growing threat of the 
Islamic State. What used to be al-Qaeda's branch in the 
Caucasus has now become part of the Islamic State, and there is 
a threat also that emanates from the region from the Islamic 
State. They are concerned about that in the Central Asian 
countries, which are in Russian sphere of influence as well as 
attacks in their country.
    So, I think part of that is an attempt. Because the Taliban 
and the Islamic State are enemies, they do fight each other. 
Although this was more common a year or 2 ago, they have sort 
of, kind of come to some uneasy truce. I believe that they are 
also--I think this is also a ploy by the Russians to gain 
influence with the Taliban as well as, you know, as possibly a 
little payback for United States efforts in Afghanistan in the 
1980s.
    As far as what the United States can do about this, I think 
there is only really political pressure that can be applied. As 
far as Russian support for the Taliban, it is pretty low on the 
chain. When you look at it, you know, you have the primary 
state sponsor for the Taliban and jihadist groups in Pakistan 
is--or in Afghanistan is Pakistan, and I would even say Iran 
poses a bigger threat with its support for the Taliban as well.
    Russia; they are providing light arms as far as I could 
tell at this point in time. We haven't had a lot of specifics 
of what that Russian support is, but really the only solution 
is diplomatic here. We are not going to go to war with the 
Russians for providing a small amount of arms to the Taliban.
    Ms. Torres. Thank you.
    Mr. Jones. I would say, based on my look at this, there are 
at least three potential motivations for Russia right now. One, 
I think if we look broadly at Russian operations in Syria, even 
Russian presence in Libya as well as in Afghanistan and other 
locations, they are expanding and attempting to expand their 
influence as part of a resurgence effort. Second, I think they 
are concerned about the Islamic State and other groups 
operating in Afghanistan, particularly ones that may come back 
from Iraq and Syria into Central Asia, the Caucasus, and South 
Asia. And third, they have had some concerns about the U.S. 
withdrawal from the regions and what gets left on their 
southern flank.
    I mean, I think there are a few things that the U.S. can 
do. One is--I mean--to continue to target, as the U.S. has, the 
Islamic State in the region including in Afghanistan. I mean, 
it is a threat so I think there is some reason for the Russians 
to be concerned about ISIS there. I think the U.S. should stop 
saying, as it has done at various points over the last couple 
of years, that it is going to leave. I think that may be 
helpful so the Russians realize we are not leaving for the 
foreseeable future; it is a conditions based effort.
    And I think, and Vanda said this earlier, that we should be 
as transparent as possible on what they are doing so we have 
evidence to show it publicly.
    Ms. Torres. Thank you. Dr. Brown?
    Ms. Felbab-Brown. I agree with the three stated 
motivations. Russia's official justification for its engagement 
and not denial of support for the Taliban has been that the 
Islamic State is a bigger threat for them. I think that is the 
calculation. I don't think that is the sole calculation, 
however. I do believe that Russia, like other regional actors, 
are uncertain about the outcome and are hedging and cultivating 
proxies. It is not simply the Taliban that Russia is engaging, 
but also other proxies that have been not violently, but in 
political opposition to Kabul.
    So, it is a wide range of actors that Russia is engaging 
just as Iran is engaging, and clearly, they have now moved to 
directly military cultivating the Taliban. And I do believe 
that Russia defines its primary strategic objective as 
challenging the United States across the world. They waited in 
Afghanistan to challenge the United States, but they never 
wholeheartedly supported U.S. efforts in Afghanistan, and now 
they determined that this is yet another theater where they can 
engage.
    I do believe that the primary response is one of diplomatic 
exposure and diplomatic engagement and, perhaps, diplomatic 
isolation of Russia. However, there are other interdiction 
options also not of Russian agents in the Taliban, but 
certainly of some of the proxies that Russia is engaging with, 
that does not necessarily mean military eliminating them; but 
perhaps, blowing up the heroin stockpiles that the 
representative mentioned that belong to proxies and favored 
power brokers of Russia in Afghanistan as a tool, as a signal.
    Ms. Torres. Thank you, and my time is up. I yield back.
    Mr. Poe. I thank the gentlelady. The Chair recognizes the 
gentleman from Illinois Mr. Schneider.
    Mr. Schneider. Thank you, Chairman Poe. Thank you to you 
and the ranking member for calling this hearing, and I want to 
thank the witnesses for sharing with us your perspectives. This 
is obviously, as you have stated, a very complex issue. Before 
I continue, I also want to join with my colleagues in extending 
my personal and our condolences to the families of the fallen 
fighters in Afghanistan. Our thoughts and prayers are with 
them.
    So Mr. Roggio, and I mentioned this to you on the break. 
You mentioned something called the Long War and that could be 
looking backward. We have been in Afghanistan now approaching 
its 16th year, or it could be looking forward. From your 
perspective what are we looking at going forward as far as the 
time of our involvement here?
    Mr. Roggio. Yes, this long war has expanded greatly since 
9/11. If we look at just the threat of al-Qaeda, it was 
operating in Afghanistan alongside the Taliban fighting the 
Northern Alliance, running training camps, and then it had a 
small presence in a couple of countries throughout the world 
operating on a cellular level.
    Since particularly with the Arab Spring, the jihadist 
threat has expanded greatly. We now have active war zones in 
Syria, Iraq, Yemen, Somalia, Mali, Libya, Afghanistan, 
Pakistan, and Southeast Asia. We could go on listing the 
countries where we have active jihadist insurgencies. We have 
had attacks here in the homeland, attacks in Europe. The 
reality is we are fighting this enemy militarily, but we are 
not tackling their ideology, which to me is the prime driver of 
these Islamist militant groups.
    Until we and our allies come up with a way to discredit 
them, to discredit their ideology, we are just not killing them 
fast enough. We have great success in killing terrorist 
leaders, in killing fighters in drone strikes, and that has 
been fine. But they have shown a remarkable capability to 
replace their leadership and that is the way they have been 
expanding their operations.
    Mr. Schneider. And I am sorry just because of time--and 
they are resilient. But if I can turn to Dr. Jones, I think it 
was you that said this. If not, I apologize. I may have lost it 
while we had stepped away. But you indicated that our policy 
across administrations has been, I think the term you used was, 
a mess. And my----
    Mr. Jones. Bill may have used that.
    Mr. Schneider. All right. That is just--I may have gotten 
it right. But my question, this is for the whole panel, is as 
we look at the policy as it is today with the challenges--and 
Mr. Roggio you talked about how quickly, how resilient they are 
and how quickly they have expanded and can pop up with new 
members, new resources--as we try to put a policy into place 
that has a sense of order, what does that order look like? What 
specific goals would you apply? What would be the timelines we 
should be considering as we look at policy here from our 
position?
    Mr. Jones. Sure, I have a couple of comments on that. I 
mean, I think as I have looked at this and I have been involved 
myself in this as a civilian and in the military in 
Afghanistan, I think our objectives at this point should be 
fairly limited. We are dealing with a government that has 
challenges and is relatively weak, but I would set up several 
objectives. One is to prevent the Taliban from overthrowing the 
government and from holding urban terrain, you know, major 
urban terrain, and I think that is potentially doable.
    I think we should continue to target groups that are 
plotting attacks against the U.S. both here and overseas, and I 
think we should continue to support the government and local 
actors as well on the ground. I don't know the timelines there. 
I think those are in American interests. I think one can do 
those with a limited presence on the ground with both 
diplomatic, development, and military.
    But I think that is a condition based approach rather than 
a timeline, and I think as long as we are moving in those 
directions and the government is relatively competent, I would 
personally support that.
    Mr. Schneider. Dr. Felbab-Brown, your perspective? You 
bring experience beyond just this region; across the globe. 
What do you see as some of the objectives, challenges, and 
metrics that we can measure progress by?
    Ms. Felbab-Brown. Beyond the unfortunate position of not 
having a good alternative to persevering, we can decide to 
liquidate the mission in Afghanistan, and indeed, to quote a 
prominent U.S. strategist or paraphrase, the hallmark of a wise 
power is to know when to liquidate unwise commitments.
    I don't believe we have reached that stage in Afghanistan. 
Our perseverance still keeps the country from outright civil 
war and the Taliban from toppling the regime and holding 
significant territories. Those are very important means to 
achieving or to maintaining U.S. objectives.
    I would think about the conditions under which the U.S. 
support would no longer be maintaining those objectives such as 
if the Afghan military turned on itself, if there were massive 
defections, if in fact political infighting started in advance 
of the Presidential 2019 elections. Those would be markers for 
me to reconsider liquidating despite the terrible cost to U.S. 
counterterrorism objectives.
    Until then, I do believe that we need to persevere, 
perhaps, with a boosted military presence as well. However, the 
perseverance and the military presence cannot be decoupled from 
strong focus and governance. We need to change the perceptions 
of the Afghan people where the Taliban is really not so much 
worse than the predatory rule of local power brokers or even 
Afghan officials associated with the government.
    Mr. Schneider. Thank you. My time is up. As with all 
complex issues but especially here, the answers to a question 
leads to so many more questions. I wish we had more time, but 
thank you for being here.
    Mr. Poe. And the gentleman can submit those questions for 
the record and we will make sure that the witnesses invite 
those, or answer those questions in a timely manner; not take 
16 years to answer them for us. I will recognize myself, as I 
mentioned, as last to ask questions. I want to read a statement 
made by the Ambassador from Afghanistan to the United Nations--
only portions of it.
    In recent months, dozens of terrorist attacks across 
Afghanistan have claimed scores of innocent lives. The Taliban 
has claimed responsibility for most of these attacks, but 
regardless of whose names are being labeled on these attacks, 
our own investigations have clearly established that they were 
generally plotted beyond our frontiers on the other side of the 
Durand line, mainly Pakistan. Mr. President, it is a 
fundamental factor which needs to be addressed.
    So I want to address that with the remaining time that we 
have. Dr. Jones, I will ask you first. Explain, as you can 
concisely, what Pakistan's mischief is regarding terrorist 
groups that are related to Pakistan, hide in Pakistan, and they 
go to Afghanistan. Explain that relationship if you can.
    Mr. Jones. Sure. I think this in part comes down to what I 
would call the great power of politics, meaning Afghanistan 
sits--and Pakistan is a major border with Afghanistan. 
Afghanistan's strongest regional ally is India. That is 
unacceptable to Pakistan; India is an enemy. So while the 
Afghan Government has an ally in the Indian Government, 
Pakistan has resorted to proxy organizations to further its 
foreign policy goals both in places like Jammu and Kashmir 
against the Indians and in Afghanistan and that means support 
to organizations like the Haqqani Network and the Taliban. So 
it is a proxy war.
    Mr. Poe. Either one of our other witnesses want to weigh in 
on this?
    Mr. Roggio. I would agree with Dr. Jones. The Pakistani 
Government is, you know, continuing with its policy or its 
strategy of strategic depth. It views everything through the 
lens of fighting India. And unfortunately, some of these 
jihadist groups that have spawned from the Pakistani efforts to 
fight India to establish strategic depth in Afghanistan. It has 
come back to bite them with groups like the movement of the 
Taliban in Pakistan and other groups which have attacked the 
Pakistani State. And unfortunately, Pakistan seems unwilling to 
recognize this.
    It is still--while it fights the movement of the Taliban in 
Pakistan, it continues to support other groups like Lashkar-e-
Taiba and host of other groups, because they are willing to 
serve as Pakistan's strategic depth. Until the Pakistani 
Government, leaders and military intelligence--until they come 
to grips with this, this problem is going to exist for decades.
    Mr. Poe. Would you agree that with the statement of Admiral 
Mullen in 2011 that the Haqqani Network acts as a veritable arm 
of Pakistan's Inter-Service Intelligence agency?
    Mr. Roggio. Yes, I absolutely would agree. And keep in mind 
the operational leader of the Haqqani Network, Siraj Haqqani. 
He is also one of two deputy emirs for the Taliban. The Haqqani 
Network, they will tell you--their propaganda has said look, we 
don't exist, there is no Haqqani Network. We are the Taliban. 
That is both true and untrue. It is a subset of the Taliban. 
Its leaders are integrated with the Taliban, so it is a major; 
it is receiving major support from the Pakistani Government 
and, you know, they are killing Americans. And we have to--we 
really need to figure out a way to get Pakistan to stop 
supporting the Taliban.
    Mr. Poe. And in recent years, the United States has given 
over $33 billion in some form of aid to Pakistan. Pakistan 
directly or indirectly supports the Haqqani Network in theory. 
That network, as we mentioned earlier, has killed more 
Americans in the region than any other terrorist group. To me 
that is something that we should not accept. We should not 
accept sending money to a country that supports a terrorist 
group that kills Americans. I think there is a real problem 
with that.
    Dr. Jones, do you want to weigh in on that?
    Mr. Jones. No. I think it is a serious problem. I mean, I 
have been on the receiving end of it myself. I have lost 
friends and colleagues because of Haqqani Network attacks. I 
think it is a very, very serious problem. I would support, as 
the U.S. did last year, when it has a strike against a Taliban 
leader as it did with Mullah Mansour to take that strike. I 
mean, I think it is worth considering the costs and benefits, 
but I would applaud the administration for targeting the 
Taliban leader last year.
    Mr. Poe. All right, I will yield back the remainder of my 
time. I want to thank all of our witnesses for being here. I 
certainly want to thank the members of the committee. This has 
not been an encouraging hearing about the 16-year war that is 
taking place, but I appreciate you being here. Maybe we can 
figure out some solutions for what Congress' role should be and 
advise the administration as well. This subcommittee is 
adjourned.
    [Whereupon, at 4:14 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     Material submitted for the record by the Honorable Ted Poe, a 
   Representative in Congress from the State of Texas, and chairman, 
         Subcommittee on Terrorism, Nonproliferation, and Trade



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
